Case: 19-3446

Document: 84

Page: 1

Date Filed: 10/19/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-3446
DANIEL J. HEFFLEY,
Appellant
v.
KIMBERLY STEELE, et al.
(D.C. Civ. No. 2-17-cv-01624)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Peter J. Phipps
Circuit Judge
Date:

October 19, 2020

Case: 19-3446

MB/cc:

Document: 84

Daniel J. Heffley
Elisabeth Bennington, Esq.
Shane Haselbarth, Esq.
Amy J. Coco, Esq.
Holly M. Whalen, Esq.
Jessica Lucas, Esq.
Scott O. Eberle, Esq.
Kenneth N. Schott, III, Esq.

Page: 2

Date Filed: 10/19/2020

Case: 19-3446

Document: 75

Page: 1

Date Filed: 09/17/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-3446
DANIEL J. HEFFLEY,
Appellant
v.
KIMBERLY STEELE, in her capacity as spouse and individual; MARK STEELE, in his
capacity of an individual; JOCELYN STEELE, in her capacity of an individual;
ELISABETH BENNINGTON, ESQ., in her capacity as a principal of Bennington Law
Firm, LLC, and as an individual; DEBORAH WITCHEL, in her capacity as therapist,
and as an individual; KATHERINE GIBSON, in her capacity as an agent of Isaly
Counseling Services and as an individual; NEIL ROSENBLUM, PhD., in his capacity as
a principal in Allegheny Forensic Associates and as an individual; JAMES BOZIGAR, in
his capacity as therapist, and as an individual; ELISABETH MOLNAR, ESQ., in her
capacity of counselor to plaintiff, principal in Raphael, Rumsden and Behers, PC and as
an individual; STEPHANIE MUICK, ESQ., in her capacity as a court appointed counsel,
principal of Cervone Law and as an individual; ARNOLD CAPLAN, ESQ., in his
capacity as a court appointed GAL, principal in Caplan & Chester and as an individual;
WILLIAM CLIFFORD, ESQ., in his capacity as a partner, Dickie, McCamey &
Chilcote and as an individual
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2:17-cv-01624)
Chief District Judge: Honorable Mark R. Homak
Submitted Pursuant to Third Circuit LAR 34.1(a)
August 14, 2020
Before: JORDAN, BIBAS and PHIPPS, Circuit Judges
(Opinion filed September 17, 2020)

Case: 19-3446

Document: 75

Page: 2

Date Filed: 09/17/2020

OPINION*

PER CURIAM
Pro se appellant Daniel Heffley appeals after the District Court dismissed his
lawsuit alleging violations of both federal and state law during his child custody
proceedings. For the reasons detailed below, we will affirm.
In his initial complaint, Heffley brought claims under 42 U.S.C. § 1983 and the
Americans with Disabilities Act (“ADA”), as well as state-law claims. He named 15
defendants, including a state-court judge, a deputy court administrator, and the Court of
Common Pleas of Allegheny County. The District Court screened the complaint
pursuant to 28 U.S.C. § 1915(e), advised Heffley of several deficiencies, and dismissed
the complaint without prejudice to Heffley’s filing an amended complaint.1 Heffley then
filed his first amended complaint, bringing the same claims, and naming 12 of the
original 15 defendants, excluding the state-court judge, deputy court administrator and
state court. The 12 named defendants were Heffley’s wife and her two parents, Heffley’s
wife’s attorney, two attorneys who represented Heffley during the proceedings, Heffley’s
court-appointed guardian ad litem from the custody proceedings, an attorney appointed to

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
1 The District Court noted that it appeared that the state-court judge and the state court
were protected from Heffley’s claims by the doctrine of judicial immunity and sovereign
immunity under the Eleventh Amendment.
2

Case: 19-3446

Document: 75

Page: 3

Date Filed: 09/17/2020

represent Heffley’s children during the custody proceedings, Heffley’s children’s courtappointed therapist, Heffley’s children’s court-appointed counselor, a “custody
psychological evaluator” from the custody proceedings, and another court-appointed
therapist. The District Court dismissed the amended complaint under § 1915(e)(2)(B)(ii).
The § 1983 claims were dismissed with prejudice because none of the defendants were
state actors, and the state-law claims were dismissed with prejudice for failing to state a
claim. The ADA claims were dismissed with leave to file one more amended complaint.
The District Court concluded that Heffley had adequately alleged a disability (serious
complications arising from a stroke he suffered), but had failed to plead facts showing
that any of the defendants owed him a duty under the ADA, or that they had allegedly
violated any such duties.
In his second amended complaint, Heffley named the same 12 defendants as in his
first amended complaint, reasserted his ADA claims, and also reasserted most of his
constitutional and state-law claims, despite their with-prejudice dismissals.
Eight of the defendants filed motions to dismiss. The remaining four defendants
never entered appearances through counsel, and the District Court issued a show cause
order as to why those four defendants should not be dismissed for lack of service of
process. Heffley filed a response to the show cause order.
The District Court granted the eight defendants’ motions to dismiss, and dismissed
the claims against the remaining four defendants sua sponte under §1915(e)(2)(B)(ii).

3

Case: 19-3446

Document: 75

Page: 4

Date Filed: 09/17/2020

The claims against all 12 defendants were dismissed with prejudice.2 Throughout the
litigation, Heffley filed three motions for appointment of “advisory counsel,” all of which
were denied. After the District Court dismissed the case, Heffley timely appealed.
We have jurisdiction over this appeal pursuant to 28 U.S.C. § 1291. We exercise
plenary review over the District Court’s decision to grant a motion to dismiss. See
Fleisher v. Standard Ins. Co.. 679 F.3d 116, 120 (3d Cir. 2012). We review dismissals
pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii) under the same de novo standard of review as
with our review of a motion to dismiss pursuant to Federal Rule of Civil Procedure
12(b)(6). See Allah v. Seiverling. 229 F.3d 220. 223 (3d Cir. 2000). Dismissal is
appropriate if the plaintiff is unable to plead “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twomblv. 550 U.S. 544, 570 (2007). When
considering motions to dismiss, we must accept all factual allegations in the complaint as
true and draw all reasonable inferences in the light most favorable to the non-movant.
See Foglia v. Renal Ventures Mgmt., LLC, 754 F.3d 153, 154 n.l (3d Cir. 2014).
To begin, Heffley strenuously objects to the District Court’s denial of his three
motions for the appointment of advisory counsel. Heffley argues that the District Court
erred in construing these as motions seeking counsel to represent him when, in fact, he
merely requested a private attorney or a member of the court staff to advise him as he
litigated his case. In his brief in this Court, Heffley makes clear that he did not want
appointed counsel to actually represent him, given that several of the defendants are

2 The District Court held that, in the alternative, the claims against the four defendants
who never appeared could have been dismissed for failure to prosecute.
4

Case: 19-3446

Document: 75

Page: 5

Date Filed: 09/17/2020

attorneys and, in his words, “attorneys are generally reluctant to sue one another and the
Plaintiff didn’t think it wise to ask the court to appoint one to do so.” Heffley cites no
mechanism through which the District Court could have appointed an attorney to serve as
an advisor but not counsel in a civil case, and this Court in unaware of any such
procedure.3 In any event, the District Court did not abuse its discretion in construing
Heffley’s motions as requesting counsel and denying the motions after a careful
consideration of the factors discussed in Tabron v. Grace. 6 F.3d 147, 155-56 (3d Cir.
1993).
Moving on to the merits, the District Court did not err in dismissing Heffley’s
§ 1983 claims. Neither Heffley’s wife, her parents, or the various lawyers named as
defendants, were state actors amenable to suit under § 1983. See Angelico v. Lehigh
Valiev Host).. Inc.. 184 F.3d 268, 277 (3d Cir. 1999) (“[A] lawyer representing a client is
not, by virtue of being an officer of the court, a state actor ‘under color of state law’
within the meaning of § 1983.”) (quoting Polk Countv v. Dodson. 454 U.S. 312, 318
(1981)). Furthermore, the other defendants, including a court-appointed counselor, courtappointed therapists, a court-appointed custody evaluator, and a court-appointed guardian
ad litem, were immune from suit under doctrines of judicial immunity. See Hughes v.
Long. 242 F.3d 121, 126-28 (3d Cir. 2001) (holding that custody evaluators in family
court cases are entitled to judicial immunity; discussing the judicial immunity of courtappointed counselors and therapists); Gardner by Gardner v. Parson. 874 F.2d 131, 146

3 We note that courts generally have no obligation to provide pro se litigants with legal
advice. See Mala v. Crown Bay Marina. Inc.. 704 F.3d 239, 697-98 (3d Cir. 2013).
5

Case: 19-3446

Document: 75

Page: 6

Date Filed: 09/17/2020

(3d Cir. 1989) (holding that a guardian ad litem is “absolutely immune in exercising
functions ... in which the guardian acts as an actual functionary or arm of the court.”).
The District Court also did not err in dismissing Heffley’s state-law claims for
intentional infliction of emotional distress, alleged violations of various professional
ethics codes, and for positions taken and testimony given by various defendants during
the state-court proceedings. Under Pennsylvania law, a successful claim for intentional
infliction of emotional distress requires a plaintiff to demonstrate that he suffered “some
type of resulting physical harm due to the defendant’s outrageous conduct.” Reeves v.
Middletown Athletic Ass’n, 866 A.2d 1115, 1122-23 (Pa. Super. Ct. 2004) (citation
omitted). Heffley made no allegation of physical harm, and thus these claims were
properly dismissed. As to Heffley’s allegations of shortcomings under various
professional codes of conduct, “[t]he Rules of Professional Conduct do not carry the
force of substantive law, nor do they broaden an attorney’s duties in civil legal
proceedings; instead, they are a basis upon which to sanction a lawyer through
disciplinary proceedings.” See In re Adoption of

981 A.2d261, 273'(Pa. Super.

Ct. 2009). With regard to testimony given and positions taken by the defendants during
the custody proceedings, under Pennsylvania law, “it is well settled that private
witnesses, as well as counsel, are absolutely immune from damages liability for
testimony, albeit false, given or used injudicial proceedings.” Pelagatti v. Cohen. 536
A.2d 1337, 1342 (Pa. Super. Ct. 1987) (citations omitted). Accordingly, the District
Court did not err in concluding that Heffley failed to state a claim in this regard. All of
Heffley’s state-law claims were properly dismissed.
6

Case: 19-3446

Document: 75

Page: 7

Date Filed: 09/17/2020

Finally, turning to the ADA claims, the District Court advised Heffley in its
second order dismissing these claims with leave to amend that his second amended
complaint needed to “be specific and particular as to any ADA claim against any
particular Defendant, and must set out sufficient, specific facts to make a showing of the
ADA-based obligation of that specific Defendant, and that particular Defendant’s
violation of a specific federal statutory duty under the ADA.” In Heffley’s second
amended complaint, he again failed to identify the specific statutory ADA duties that the
defendants allegedly violated, and how they did so. The District Court liberally
construed Heffley’s claims as being based on Title II of the ADA, which prohibits
discrimination by a “public entity.” See 42 U.S.C. § 12132; see also 42 U.S.C. § 12131
(defining “public entity” as: “(A) any State or local government; (B) any department,
agency, special purpose district, or other instrumentality of a State or States or local
government; and (C) the National Railroad Passenger Corporation, and any other
commuter authority.”). To establish a violation of Title II of the ADA, a plaintiff must
demonstrate that: (1) he is a qualified individual with a disability; (2) he was either
excluded from participation in or denied the benefits of some public entity’s services,
programs, or activities; and (3) such exclusion, denial of benefits, or discrimination was
by reason of his disability. See id § 12132.
The District Court did not err in holding that Heffley failed to state a claim under
Title II. Although he clearly alleged a disability, he failed to allege denial of benefits or
exclusion from a public entity’s services, programs, or activities by reason of his

7

Case: 19-3446

Document: 75

Page: 8

Date Filed: 09/17/2020

disability, despite numerous opportunities to do so.4 For these reasons, Heffley failed to
state an ADA claim.
Accordingly, we will affirm the judgment of the District Court. The motion to
supplement the appendix filed by Appellees Clifford, Gibson, Rosenblum, and Witchel is
granted.

4 Furthermore, even assuming, arguendo, that Heffley successfully alleged that the
various defendants were public entities, other courts have held that, under Title II, public
entities can be sued only in their official capacities for prospective relief, rather than in
their individual capacities for damages. See Garcia v. S.U.N.Y. Health Scis. Ctr. of
Brooklyn. 280 F.3d 98, 107 (2d Cir. 2001); Alsbrook v. City of Maumelle. 184 F.3d 999,
1005 n.8 (8th Cir. 1999) (en banc); cf. Koslow v. Pennsylvania. 302 F.3d 161, 178-179
(3d Cir. 2002) (reaching the same conclusion with regard to claims under Title I of the
ADA). Here, all of Heffley’s claims sought damages against the defendants individually.
To the extent that any of Heffley’s claims could be construed as seeking prospective
relief from any defendant in the defendant’s official capacity, his allegations failed to
establish that any defendant still held the position in question, given that each defendant
was court-appointed for the limited purpose of the custody proceedings, which have
concluded.
8

Case; 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 1 of 19

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
DANIEL J. HEFFLEY

)
)
)
)
)
)
)
)
)

Plaintiff,
v.

KIMBERLY STEELE, et al.,
Defendants.

2:17-cv-01624

OPINION
Mark R. Hornak, Chief United States District Judge
On April 12, 2019, pro se Plaintiff Daniel Heffley filed a Second Amended Complaint
(“SAC”) against twelve (12) individual Defendants. (2d Am. Compl., ECF No. 38.) In addition,
Plaintiff filed a Motion to Appoint Counsel. (Mot. to Appoint, ECF No. 39; Suppl. Resp., ECF
No. 98.)
Eight of those Defendants filed various Motions to Dismiss. (Mots. To Dismiss, ECF
Nos. 43 (William Clifford), 45 (Stephanie Muick), 47 (Arnold Caplan), 50 (Elizabeth Molnar),
59 (Elizabeth Bennington), 64 (Deborah Witchel), 66 (Neil Rosenblum),1 79 (Katherine
Gibson).2) Plaintiff filed several documents on the docket that the Court considers to be
responses to the Motions to Dismiss and will consider them in its disposition of the pending

1 Defendant Rosenblum did not attach a Certificate of Service to his Motion to Dismiss. However, in response to the
Court’s Order, Rosenblum later filed the Certificate of Service showing that a copy of his Motion was mailed to
Plaintiff on the date it was electronically filed with the Court, thereby providing Plaintiff notice of the Motion
pursuant to Federal Rule of Civil Procedure 5. (ECF No. 93.)
2 Defendant Gibson did not attach a Certificate of Service to her Motion to Dismiss. However, in response to the
Court’s Order, Gibson later filed the Certificate of Service showing that a copy of her Motion was mailed to Plaintiff
one day after it was electronically filed with the Court, thereby providing Plaintiff notice of the Motion pursuant to
Federal Rule of Civil Procedure 5. (ECF No. 94.)

1

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 2 of 19

Motions. (EOF Nos. 71, 72,3 73, 74,4 76-78, 83, 84, 91, 95,5 98.) Defendant Stephanie Muick
filed a reply. (ECF No. 75.)
The remaining four Defendants (Kimberly Steele, Mark Steele, Jocelyn Steele, and James
Bozigar) have not entered any appearance by counsel on the docket, and the Court issued a Show
Cause Order on June 5, 2019, as to why those Defendants should not be dismissed from the case
for lack of service of process. (Order, ECF No. 82.) Plaintiff responded.6 (ECF Nos. 85, 87.)
With these documents and filings, the Court embarks on a claim-by-claim analysis of the
SAC and disposition of the miscellaneous motions.7 This Opinion comes in three parts. The first
part provides the procedural history and factual background as alleged in the SAC. The second
part of this opinion addresses Plaintiffs Motion to Appoint Counsel. And the third part addresses
Defendants’ Motions to Dismiss.
I.

BACKGROUND
Plaintiff initiated this action on December 15, 2017 (ECF No. 1), and shortly thereafter

filed his First Amended Complaint (“FAC”). (1st Am. Compl., ECF No. 4). “The core assertions
in the Amended Complaint all appear to relate to litigation in the Pennsylvania state courts

3 The Court will consider ECF No. 72 to the extent it responds to the Motions to Dismiss, but the Court denied all
requests for relief stated therein in its Order dated July 11,2019. (ECF No. 90.)
4 The Court will consider ECF No. 74 to the extent it responds to the Motions to Dismiss, but the Court denied all
requests for relief stated therein in its Order dated July 11,2019. (ECF No. 90.)
5 The Court will consider ECF No. 95 to the extent it responds to the Motions to Dismiss, but the Court denied all
requests for relief stated therein in its Order dated July 24,2019. (ECF No. 96.)
6 Because service was not waived by Kimberly Steele, Mark Steele, Jocelyn Steele, and James Bozigar, Rule 4(l)(l)
required Plaintiff to prove service. Plaintiffs response to the Court’s Order to Show Cause failed to prove that he
accomplished proper service on these four defendants. (ECF Nos. 85, 87.) Plaintiff attached photocopies of certified
mailing cards to his response, but these cards do not show that he properly served the defendants, nor did he attach
an affidavit as required by Rule 4(l)(l). See Fed. R. Civ. P. 4(l)(l).
7 In an effort to manage the docket, the Court has periodically issued Orders in response to Plaintiffs filings and
other miscellaneous motions. (See Orders, ECF Nos. 86, 90, 92, 96.) To the extent that the Court denied Plaintiff
relief in those Motions, the Court will not revisit them here.
2

Case 2:17-cv-01624-MRH Document 1X0 Filed 10/11/19 Page 3 of 19

regarding child custody matters, and the Defendants in this case are all seemingly participants in
those proceedings, but most certainly as private actors.” (Mem. Order, ECF No. 35, at 2.)
The Court reviewed that FAC and dismissed Plaintiffs claims—some with prejudice and
some without. {Id. at 1.) The Court dismissed with prejudice all claims based on alleged
violations of the First, Fifth, Ninth, and Fourteenth Amendments to the United States
Constitution as to all Defendants. {Id.) The Court also dismissed with prejudice various state law
claims based on “perceived violations of [Defendants’] various professional ethics codes” and
“positions/testimony taken or made by such persons in the state court litigation.” {Id. at 2.)
Plaintiff was given leave to amend his FAC solely to plead “specific and particular” claims
brought pursuant to the Americans with Disabilities Act (“ADA”).
Plaintiff filed his Second Amended Complaint on April 12, 2019. Despite the Court’s
instructions to include only claims brought under the ADA, Plaintiff reasserted the vast majority
of his constitutional and state law claims in the SAC. Plaintiffs ADA claims consisted of the
same factual allegations included in his FAC.
II.

Plaintiffs Motion to Appoint Counsel
Prior to filing the SAC, Plaintiff filed a “Motion to Request the Appointment of Advisory

Counsel,” (ECF No. 30), which the Court denied without prejudice as that motion failed to
“demonstrate^ an entitlement or authorization in law requiring or counseling the appointment of
counsel in this civil action, nor does the Motion set out a basis counseling the Courts search for
pro bono counsel on the Plaintiffs behalf.” (Order, ECF No. 34.) Plaintiff then renewed his
request for appointed counsel. (ECF No. 39.) Although this Court denied the duplicate request
(ECF No. 41), the Court incorporates Plaintiffs arguments presented there (and in ECF No. 98)

3

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 4 of 19

into Plaintiffs Motion for Appointed Counsel (ECF No. 39), and concludes that Plaintiffs
Motion to Appoint Counsel (ECF No. 39), should be denied.
“Indigent civil litigants possess neither a constitutional nor a statutory right to appointed
counsel.” Montgomery v. Pinchak, 294 F.3d 492, 498 (3d Cir. 2002). It is true that Congress
granted this Court authority to request appointed counsel for a civil litigant (such as Plaintiff)
that is unable to afford counsel. That statute is located at 28 U.S.C. § 1915(e)(1). But when
addressing a pro se plaintiffs request for appointed counsel, the district court must undertake a
two-part inquiry.
First, as a threshold matter, the district must determine that Plaintiffs case “has arguable
merit in fact and law.” Tabron v. Grace, 6 F.3d 147, 155 (3d Cir. 1993). Under Third Circuit
case law, a district court is required to complete this first step in every instance when a plaintiff
requests appointed counsel. Houser v. Folino, 927 F.3d 693, 698 (3d Cir. 2019) (“[l]t would be
an abuse of discretion to appoint counsel to advance claims with no arguable merit in law and
fact.”). And when the court examines whether the plaintiffs case has “merit in fact and law” it
should scrutinize the allegations contained in the complaint. Montgomery, 294 F.3d at 499.
Specifically, the court should demand more than “mere bald assertions” in the plaintiffs
pleadings. Id. Rather, the plaintiff must present some factual showing that demonstrates he has
more than an ‘“extremely slim’ chance of success on the merits.” Id. at 501 (quoting Hodge v.
Police Officers, 802 F.2d 58, 60 (2d Cir. 1986)).
Second, “[i]f the district court determines that the plaintiffs claim has arguable merit in
fact and law, the court should then consider a number of additional factors that bear on the need
for appointed counsel.” Tabron, 6 F.3d at 155. The factors include, but are not limited to:
(1) the plaintiffs ability to present his or her own case;

4

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 5 of 19

(2) the complexity of the legal issues;
(3) the degree to which factual investigation will be necessary and the ability of the
plaintiff to pursue such investigation;
(4) the amount the case is likely to turn on credibility determinations;
(5) whether the case will require the testimony of expert witnesses;
(6) whether the plaintiff can attain and afford counsel on his own behalf.
Parham v. Johnson, 126 F.3d 454, 456 (3d Cir. 1997) (citing Tabron, 6 F.3d at 155-56, 157 n.5).
But even when considering these factors, “courts should exercise care in appointing counsel
because volunteer lawyer time is a precious commodity and should not be wasted on frivolous
cases.” Montgomery, 294 F.3d at 499 (citing Parham v. Johnson, 126 F.3d 454, 4568 (3d Cir.
1997)).
Here, Plaintiff fails to satisfy the threshold inquiry. Plaintiffs claims have no arguable
merit. And as the Court will explain in greater detail below, Plaintiffs SAC fails to state a claim
for which this Court can grant relief. The Court certainly appreciates that litigation in federal
court can be difficult to navigate. But this is not a situation in which Plaintiffs case is being
dismissed for “tiny and truly inconsequential faux pas regarded as errors in law.” (ECF No. 39.)
Rather it will be dismissed because Plaintiffs recitation of the facts in the SAC simply did not
describe (or even suggest) an ADA violation. No amount of “legal language” or “lawyer speak”
would or could change that reality.
In the Court’s estimation, there is no requirement to inquire further since Plaintiff fails
the threshold inquiry. But, even assuming the Plaintiffs SAC contained some arguable merit in
law or fact, the Court would still exercise its discretion to deny Plaintiffs motion. The Tabron
factors—which serve as a guidepost for the Court—counsel against appointing an attorney in this
5

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 6 of 19

case. Admittedly, the first Tabron factor—the plaintiffs ability to present his case—cuts in the
Plaintiffs favor to an extent. Plaintiff suffered a stroke years ago and litigated this case through
his facilitator, which would create at least some difficulties in presenting his case. The Court
notes, however, that Plaintiff filed his complaint, application to proceed in forma pauperis, and a
litany of other documents, all of which suggests he would not be incapable of prosecuting his
case. The sixth Tabron factor, which inquires into Plaintiffs capacity to retain counsel on his
own, also cuts in Plaintiffs favor since he is proceeding in forma pauperis in this case. But on
balance, the remaining Tabron factors are either neutral or against Plaintiffs request for counsel.
The legal issues in this case, after Plaintiffs Constitutional claims were dismissed, only involve
the ADA. And these ADA claims involve a well-establish, generally straightforward legal
framework. Moreover, the Court’s review of the SAC suggests that Plaintiffs case neither
requires intensive factual investigation, nor is likely to turn on credibility determinations. Each
of these factors weighs against appointing counsel. And while it is unclear whether Plaintiff
would proffer exert testimony, there is no requirement that he do so in order to be successful.
The factor asking whether the case requires expert testimony, then, is at best neutral toward
Plaintiffs position. The Tabron factors, coupled with the principle that volunteer lawyer time
should be preciously guarded, leads the Court to conclude that appointed counsel would be
inappropriate in this case.
Therefore, in the Court’s estimation, Plaintiff fails to satisfy either prong set out by our
Court of Appeals in Tabron and its progeny. For those reasons, Plaintiffs Motion to Appoint
Counsel (ECF No. 39), is denied.

6

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 7 of 19

III.

Defendants’ Motions to Dismiss
A. Legal Standard—Motions to Dismiss and Pro Se Litigants
A claim may be dismissed for “failure to state a claim upon which relief can be granted.”

Fed. R. Civ. P. 12(b)(6). In reviewing a Rule 12(b)(6) motion, the Court conducts a two-part
analysis. First, the Court separates the factual and legal elements of a claim. Fowler v. UPMC
Shadyside, 578 F.3d 203, 210-11 (3d Cir. 2009). The Court “may disregard any legal
conclusions” Id. Second, the Court must “accept all factual allegations as true, construe the
complaint in the light most favorable to the plaintiff, and determine whether, under any
reasonable reading of the complaint, the plaintiff may be entitled to relief.” Phillips v. Cty. of
Allegheny, 515 F.3d 224, 233 (3d Cir. 2008). The Court, however, need not accept as true any
unsupported conclusions, unsupported inferences, nor “threadbare recitals of elements of a cause
of action.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A plaintiffs factual allegations must
“raise a right to relief above the speculative level” and state a “plausible claim for relief’ to
survive a motion to dismiss. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007). “The
plausibility standard is not akin to a ‘probability requirement,’ but it asks for more than the sheer
possibility that a defendant has acted unlawfully.” Iqbal, 556 U.S. at 678.
Pro se pleadings, “however inartfully pleaded,” are held to “less stringent standards than
formal pleadings drafted by lawyers.” Haines v. Kerner, 404 U.S. 519, 520—21 (1972). “If the
Court can reasonably read pleadings to state a valid claim on which the litigant could prevail, it
should do so despite failure to cite proper legal authority, confusion of legal theories, poor syntax
and sentence construction, or litigant’s unfamiliarity with pleading requirements.” Brown v.
O'Rourke, No. 17-85, 2018 U.S. Dist. LEXIS 132671, at *18 (W.D. Pa. Aug. 6, 2018). Thus, the
Court may consider facts and make inferences where it is appropriate. But “any pleading must

7

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 8 of 19

still contain sufficient factual allegations that, when accepted as true, ‘state a claim to relief that
is plausible on its face.'” Strader v. U.S. Bank Nat'I Ass’n, No. 17-684, 2018 U.S. Dist. LEXIS
20249, at *13 n.8 (W.D. Pa. Feb. 7, 2018) (quoting Iqbal, 556 U.S. at 678; and citing Fantone v.
LatinU 780 F.3d 184, 193 (3d Cir. 2015)).
B. Discussion
In its Memorandum Order, the Court dismissed all claims with prejudice except claims
arising under the ADA, which Plaintiff was given leave to amend to plead with specificity
beyond “[gjeneral broadside/boilerplate references ” (Mem. Order, at 2.) Therefore, the Court
will only analyze the SAC to the extent is appears to state a claim under ADA.8 Claims that
could be construed under another legal authority (e.g., the federal Constitution or state law) are
beyond the scope of Plaintiff s leave to amend and will not be considered.
The first problem is that the SAC does not specify a section or even a title under which
Plaintiffs claims are brought.9 It does not make a reference to any ADA duty, let alone which
Defendants supposedly violated which duties. Plaintiff failed to comply with the Court’s
Memorandum Order with respect to amending his ADA claims:
[Plaintiff] has pled no facts as to any specific duty or obligation of any Defendant
in this action owed to him under the ADA, and no specific facts as to how any
Defendant has violated any such ADA-generated duty. General
broadside/boilerplate reference to that statute, or complaints about the conduct of
8 Plaintiff failed to follow the Court’s instructions in its Memorandum Order to amend his FAC solely to state claims
under the ADA, as the seventy-six (76) page SAC continues to allege violations under "the Constitution” and
§ 1983. Nonetheless, consistent with the direction of Garrett v. Wexford Health, 938 F.3d 69 (3d Cir. 2019), the
Court has carefully examined the allegations of the SAC. The allegations in that case have several things in common
with Plaintiffs SAC. First, all parties in this case appear to be citizens of Pennsylvania, barring the assertion of
subject matter jurisdiction under 28 U.S.C. § 1332. Second, even read broadly, there are no facts asserted that would
"show” a deprivation of a federal right under "color of state law” by a state actor. Third, even considering all of the
facts in Plaintiffs favor, they at best assert only grievances based on Pennsylvania law and regulations.
9 This Court instructed Plaintiff that he “must set out. .. that particular Defendant’s violation of a specific federal
statutory duty under the ADA.” (Mem. Order, at 3.) Plaintiff failed to follow this instruction by not providing a
specific statute or specific duty for any Defendant. Because Plaintiff is pro se, this Court will endeavor to test
Plaintiffs claims against the various frameworks within the statute.

8

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 9 of 19

any Defendant do not suffice. But, because as to the ADA assertions alone the
Court cannot conclude that any amendment would be futile, the Plaintiff will be
granted one, last, final, opportunity to file a Second Amended Complaint, but it
must be specific and particular as to any ADA claim against any particular
Defendant, and must set out sufficient, specific facts to make a showing of the
ADA-based obligation of that specific Defendant, and that particular Defendant’s
violation of a specific federal statutory duty under the ADA.
(Mem. Order, at 2-3.) Yet even if the Court looks past this problem, the SAC simply fails to
plead any cognizable ADA claim.
Congress enacted the ADA to eliminate discrimination based on disability. But the ADA
does not cover every instance of such discrimination. Rather, the it covers such discrimination in
at least three situations, each of which is assigned its own “title” or subsection of the ADA
statute. Bowers v. NCAA, 346 F.3d 402, 433 (3d Cir. 2003). “Title I of the ADA prohibits
discrimination in employment.. . .” Id. (citing 42 U.S.C. § 12117). Because Plaintiffs claims do
not relate to any employment, his claims cannot arise under Title I. “Title III prohibits
discrimination in public accommodations.” Id. (citing 42 U.S.C. § 12182). “Title III is designed
to prevent a facility offering public accommodation from denying individuals with disabilities
‘goods[ and] services.’” Krist v. Kolombos Rest., Inc., 688 F.3d 89, 97 (2d Cir. 2012) (quoting 42
U.S.C. §§ 12182(a), (b)(2)(A)(ii)). The SAC does not plead any allegations related to “public
accommodations,” nor can the Court discern any plausible “public accommodations” claim.
Therefore, Title III offers Plaintiff no hook on which to hang his grievances.
This leaves Title II. 10 ttTitle II prohibits discrimination by a ‘public entity.’” Id. (citing 42
U.S.C. § 12132). And “[t]he term ‘public entity’ means—(A) any State or local government; (B)
any department, agency, special purpose district, or other instrumentality of a State of States or
10 Title V provides the anti-retaliation provision of the ADA and requires a plaintiff to show that a defendant took
adverse action against the plaintiff at least in part because the plaintiff engaged in protected conduct under the ADA.
The Court concludes that Plaintiffs grievances do not suggest (much less sufficiently plead) a retaliation claim
because of (even in part) Plaintiffs engagement in protected conduct. To the contrary, the SAC pleads that the
Defendants’ conduct was motivated by a desire to deprive Plaintiff of his paternal rights.
9

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 10 of 19

local government; and (C) the National Railroad Passenger Corporation, and any commuter
authority.” 42 U.S.C. § 12131(1) (internal citation omitted). In other words, Title II “addresses
discrimination by governmental entities in the operation of public services, programs, and
activities, including transportation.” Buchanan v. Maine, 469 F.3d 158, 170 (1st Cir. 2006).
Discrimination in the context of the family courts then may fall under Title II. See, e.g.,
Goldblatt v. Geiger, 867 F. Supp. 2d 201, 208-09 (D.N.H. 2012) (quoting Tennessee v. Lane,
541 U.S. 509, 533-34 (2004), for its holding that “Title II protects a qualified individual’s
fundamental right of access to the courts”).
Defendant William Clifford argues that Title II of the ADA does not impose liability to
individuals in their individual capacity. Although other courts of appeals have held that
individuals are not liable under Title II of the ADA, our Court of Appeals “has yet to address
individual liability under Title II of the ADA.” Brown v. Deparlos, 492 F. App’x 211, n.2 (3d
Cir. 2012); but see Emerson v. Thiel College, 296 F.3d 184, 188-89 (3d Cir. 2002) (suggesting in
dicta that individuals cannot be held liable under Title II of the ADA). Regardless, in order to
state a claim under Title II, Plaintiff must show that a Defendant meets the statutory definition of
a “public entity.” Bowens v. Wetzel, 674 F. App’x 133, 136 (3d Cir. 2017) (“Bowens has sued
state employees in their individual capacities, not any ‘public entity’ as the statute requires.”);
Williams v. Hayman, 657 F. Supp. 2. 488, 501-02 (D.N.J. 2008) (“On its face, the statutory
definition of‘public entity’ does not extend to individual governmental employees.”).
Some case law in our circuit suggests that defendants may be sued under Title II in their
official capacities for prospective relief (e.g., and injunction against future discrimination).
Anderson v. Bickell, No. 3:CV-14-1792, 2017 U.S. Dist. LEXIS 27653, at *38 (M.D. Pa. Feb.
28, 2017) (“However, ‘federal ADA claims for prospective injunctive relief against state

10

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 11 of 19

officials’ in their official capacities are permitted to continue.” (citing Koslow v. Pennsylvania,
302 F.3d 161, 179 (3d Cir. 2002)). Most recently, in Davis v. City of Phila., a plaintiffs claims
against public officers in their official capacities survived the motion to dismiss stage.
No. 18-0668, 2019 U.S. Dist. LEXIS 5362, at *8 (E.D. Pa. Jan. 11, 2019). The district court
concluded that because our Court of Appeals held “in the Title I context that an individual
defendant may be held liable ‘in his representative—not his individual—capacity . . . [for]
prospective injunctive relief,”’ plaintiffs claim for injunctive relief may survive. Id. (quoting
Koslow v. Pennsylvania, 302 F.3d 161, 178-179 (3d Cir. 2002)). The district court did dismiss
Title II claims to the extent they were against the defendants in their individual capacities. Id. at
*9.
Yet even when Title II of the ADA does provide a cause of action against an individual
defendant in her or his official capacity there remains one seemingly obvious, but vital
requirement: The defendant must actually hold an official position. After all, a claim against a
public officer in her or his official capacity is essentially a claim against the governmental entity
that employs the official. See Kentucky v, Graham, 473 U.S. 159, 165-66 (1985). “A claim
against a person ‘in his former official capacity’ has no meaning.” Mathie v. Fries, 121 F.3d 808,
818 (2d Cir. 1997); see also Fed. R. Civ. P. 25(d) (“An action does not abate when a public
officer... ceases to hold office while the action is pending. The officer’s successor is
automatically substituted as a party.”). This makes particular sense when the relief sought is
prospective injunctive relief, because a defendant who no longer holds official office would be
entirely unable to provide relief to the plaintiff. Thus, because Title II of the ADA allows suits
against a defendant in her or his official capacity solely for prospective injunctive relief, the suit

11

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 12 of 19

must actually be against someone who can provide such relief in their official or “public”
capacity.
Therefore, Plaintiffs ADA claims against any Defendant in his or her individual capacity
must be dismissed. Further, any claims against any Defendant seeking money damages
(including punitive damages) must be dismissed.11 Finally, even claims that could arguably be
construed as being against a defendant in her or his official capacity for prospective relief must
be dismissed when the defendant no longer holds any official position. The Court then must turn
to each individual Defendant to determine whether any Title II ADA claims survive these
hurdles:
•

Kimberley Steele:12 The SAC fails to tie Kimberley Steele to any official
capacity associated with a public entity. Rather, the SAC sues her “in her capacity
as spouse [to Plaintiff] and individual.” (SAC, at 1.) To the extent that the SAC
seeks to state a Title II ADA claim against Kimberly Steele, it fails to state a valid
claim and will be dismissed with prejudice.

•

Mark Steele:13 The SAC fails to tie Mark Steele to any official capacity
associated with a public entity. Rather, the SAC sues him “in his capacity as an
individual.” (SAC, at 1.) Indeed, the Court sees nothing in the SAC that even

I] u

Claims for punitive damages may not be awarded in private suits brought under the ADA.” Anderson v. Bickell,
No. 3:CV-!4-!792, 2017 U.S. Dist. LEXIS 27653, at *39 n.6 (M.D. Pa. Feb. 28, 2017) (citing Barnes v. Gorman,
536 U.S. 181, 189 (2002)).
12 The claims against Kimberley Steele may be dismissed under Rule 4(1X0 and Rule 4(m) due to Plaintiffs failure
to prosecute the case. See Fed. R. Civ. P 4(l)(l), (m). In addition, after conducting a review under 28 U.S.C.
§ 1915(e), the claims will be dismissed with prejudice because the Court concludes, for the reasons discussed above,
that Kimberley Steele cannot possibly fall within the scope of Title II of the ADA.
13 The claims against Mark Steele may be dismissed under Rule 4(l)(l) and Rule 4(m) due to Plaintiffs failure to
prosecute the case. See Fed. R. Civ. P 4(1)(1), (m). In addition, after conducting a review under 28 U.S.C. § 1915(e),
the claims will be dismissed with prejudice because the Court concludes, for the reasons discussed above, that Mark
Steele cannot possibly fall within the scope of Title II of the ADA.

12

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 13 of 19

suggests a connection to a public entity. To the extent that the SAC seeks to state
a Title II ADA claim against Mark Steele, it fails to state a valid claim and will be
dismissed with prejudice.
•

Jocelyn Steele:14 The SAC fails to tie Jocelyn Steele to any official capacity
associated with a public entity. Rather, the SAC sues her “in her capacity as an
individual.” (SAC, at 1.) To the extent the SAC seeks to state a Title II ADA
claim against Jocelyn Steele, it fails to state a valid claim and will be dismissed
with prejudice.

•

Elisabeth Bennington: According to the SAC, Elisabeth Bennington served as
the attorney for Plaintiff s wife during the underlying custody dispute. Plaintiff
sued Bennington “in her capacity as a principle [sic] of Bennington Law Firm,
LLC, and as an individual.” (SAC, at 1.) It is clear from the face of the SAC that
Bennington’s involvement was that of a privately retained attorney in a custody
proceeding. Plaintiff pleads no facts that give the Court any indication that
Bennington could be acting on behalf of a public entity. In other words, the ADA
simply does not provide Plaintiff relief for the conduct which he alleges. To the
extent that the SAC seeks to state a Title II ADA claim against Elisabeth
Bennington, it fails to state a valid claim and will be dismissed with prejudice.

•

Deborah Witchel: The SAC names Deborah Witchel “in her capacity as
therapist, and as an individual.” (SAC, at 1.) Simply put, the SAC does not
present any facts that could plausibly show that Witchel falls under Title IPs

14 The claims against Jocelyn Steele may be dismissed under Rule 4(l)(l) and Rule 4(m) due to Plaintiffs failure to
prosecute the case. See Fed. R. Civ. P4(l)(l), (m). In addition, after conducting a review under 28 U.S.C. § 1915(e),
the claims will be dismissed with prejudice because the Court concludes, for the reasons discussed above, that
Jocelyn Steele cannot possibly fall within the scope of Title 11 of the ADA.
13

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 14 of 19

definition of “public entity.” Instead, the allegations all suggest that Witchel was a
counselor or therapist to Plaintiff s minor children in conjunction with the
underlying state court proceedings. (SAC, at 30-31.) And Plaintiffs requested
relief, as to Witchel, includes requests for compensatory and punitive damages.
(SAC, at 31-32.). To the extent that the SAC seeks to state a Title II ADA claim
against Deborah Witchel, it fails to state a valid claim and will be dismissed with
prejudice.15
•

Katherine Gibson: According to the SAC, Katherine Gibson was a courtappointed counselor for Plaintiffs minor children during the underlying state
court proceedings. The SAC names Gibson “in her capacity as an agent of Jsaly
Counseling Services and as an individual.” (SAC, at 1.) As with Defendant
Witchel, the Plaintiffs allegations against Gibson are all against her as an
individual—not as a public entity as required by Title II. Plaintiffs allegations
solely relate to Gibson’s role as a counselor for Plaintiffs minor children during
the state court proceedings. And Plaintiffs requested relief seeks compensatory

15 Even if the claims against Witchel could be construed as seeking prospective injunctive relief against her in her
official capacity, the claims would still be dismissed. Whether or not Witchel’s role as a therapist during the
underlying family court litigation counts as an “official capacity,” there is no doubt that any such official position
ceased when Witchel’s role in the family court litigation concluded. Thus, any “official capacity” claim against
Witchel would be one against her in her former official capacity, which is impermissible. What’s more, even if Title
II of the ADA did provide a cause of action against defendants in their individual capacities, Plaintiffs allegations
against Witchel relate to her role conducting interviews with Plaintiff’s minor children, sending letters to the family
court, and otherwise gathering information in her role as court-appointed counselor. (SAC, at 3J-32.) Thus,
Plaintiffs allegation against Witchel in the SAC all relate to conduct that would fall within the scope of Witchel’s
judicial immunity. See Hughes v. Long, 242 F.3d 121 (3d Cir. 2001) (holding that custody evaluators in family court
cases are entitled to judicial immunity); Gardner by Gardner v. Parson, 874 F.2d 131, 146 (3d Cir. 1989)
(“Guardian ad litem would be absolutely immune in exercising functions... in which the guardian acts as an actual
functionary or arm of the court”). And courts outside our Circuit have applied the doctrines of judicial immunity
and quasi-judicial immunity to claims brought under the ADA. See Duvall v. Cty. Of Kitsap, 260 F.3d 1124, 1133
(9th Cir. 2001); but see Geness v. Pennsylvania, 388 F. Supp. 3d 530, 537-38 (W.D. Pa. 2019) (questioning whether
judicial immunity would apply to an ADA claim against the Administrative Office of Pennsylvania Courts, which is
undoubtedly a “public entity” under the ADA, but not addressing whether judicial immunity would apply to an
ADA claim brought against an individual whose functions qualify her or him for immunity).

14

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 15 of 19

and punitive damages. (SAC, at 36.) To the extent that the SAC seeks to state a
Title II ADA claim against Katherine Gibson, it fails to state a valid claim and
will be dismissed with prejudice.16
•

Neil Rosenblum: The SAC names Neil Rosenblum “in his capacity as a principle
[sic] in Allegheny Forensic Associates and [as] an individual.” (SAC, at 1.)
During the underlying state court litigation, Rosenblum served as a custody
psychological evaluator. Nothing in the complaint suggests that Rosenblum falls
within the definition of a “public entity” for the purposes of Title II of the ADA.
Instead, like Defendants Witchel and Gibson, Rosenblum is being sued in his
individual capacity, and Plaintiff cannot plausibly allege that Rosenblum was a
“public entity.” In addition, Plaintiff seeks compensatory and punitive damages
from Rosenblum—which is impermissible under Title II of the ADA. To the
extent that the SAC seeks to state a Title II ADA claim against Neil Rosenblum, it
fails to state a valid claim and will be dismissed with prejudice.17

16 As with Defendant Witchel, to the extent that any claim against Gibson could be construed as a claim against her
in a representative capacity—which the Court concludes it cannot—the claims would still be dismissed. First, even
if Gibson’s role as a court appointed counselor counted as an “official position,” such that she could be sued in her
official capacity, the SAC does not plausibly show that she is still in that position. Instead, the SAC is premised on
the family court proceedings being over—indeed that is the bedrock principle of Plaintiff’s entire argument.
Therefore, Gibson would not be a position to provide any prospective injunctive relief—to the extent that Plaintiff
seeks any—and is therefore not a proper defendant in an official capacity. Second, even if Title II of the ADA did
allow suits against individuals in their individual capacities, like Witchel, Gibson would be shielded by judicial
immunity for her functions in the underlying proceedings.
17 As with Defendants Witchel and Gibson, to the extent that any claim against Rosenblum could be construed as a
claim against him in a representative capacity—which the Court concludes it cannot—the claims would still be
dismissed. First, even if Rosenblum’s role as a custody psychological evaluator counted as an “official position,”
such that he could be sued in his official capacity, the SAC does not plausibly show that he is still in that position.
Instead, the SAC is premised on the family court proceedings being over—indeed that is the bedrock principle of
Plaintiffs entire argument. Therefore, Rosenblum would not be a position to provide any prospective injunctive
relief—to the extent that Plaintiff seeks any—and is therefore not a proper defendant in an official capacity. Second,
even if Title II of the ADA did allow suits against defendants in their individual capacities, like Witchel and Gibson,
Rosenblum would be shielded by judicial immunity for his functions in the underlying proceedings.

15

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 16 of 19

•

James Bozigar:18 The SAC names James Bozigar “in his capacity as therapist,
and as an individual.” (SAC, at 1.) The SAC suggests—but does not clearly
allege—that Bozigar served as a therapist during the underlying custody dispute.
None of the allegations against Bozigar assert a valid claim under the ADA.
Instead, the only reference to the ADA, with respect to Bozigar, is a blanket
assertion that Bozigar’s conduct violate the ADA. There is no allegation that
Bozigar falls within the scope of Title II of the ADA, nor is any such assertion
plausible. To the extent that the SAC seeks to state a Title II ADA claim against
James Bozigar, it fails to state a valid claim and will be dismissed with prejudice.

•

Elisabeth Molnar: According to the SAC, Elizabeth Molnar served as attorney
for Plaintiff during the underlying custody dispute. Plaintiff sued Molnar “in her
capacity as council [sic] to plaintiff, principle [sic] in Raphael, Ramsden and
Behers, PC, and as an individual.” (SAC, at 1.) It is clear from the face of the
SAC that Molnar’s involvement in the facts as pled was that of a privately
retained attorney in a custody proceeding. Plaintiff pleads no facts that give the
Court any indication that Molnar could be acting on behalf of a public entity. In
other words, the ADA does not provide Plaintiff relief for the conduct which he
alleges. To the extent that the SAC seeks to state a Title II ADA claim against

18 The claims against James Bozigar may be dismissed without prejudice under Rule 4(1)(1) and Rule 4(m) due to
Plaintiffs failure to prosecute the case. See Fed. R. Civ. P 4(1)(1), (m). In addition, after conducting a review under
28 U.S.C. § 1915(e), the claims will be dismissed with prejudice because the Court concludes, for the reasons
discussed above, Plaintiff cannot state a claim that James Bozigar falls within the scope of Title II of the ADA.
Moreover, as with Defendants Witchel, Gibson, and Rosenblum, to the extent that any claim against Bozigar could
be construed as a claim against him in a representative capacity—which the Court concludes it cannot—the claims
would still be dismissed. First, even if Bozigar’s role as a therapist counted as an “official position,” such that he
could be sued in his official capacity, the SAC does not plausibly show that he is still in that position. Instead, the
SAC is premised on the family court proceedings being over—indeed that is the bedrock principle of Plaintiffs
entire argument. Therefore, Bozigar would not be a position to provide any prospective injunctive relief—to the
extent that Plaintiff seeks any—and is therefore not a proper defendant in an official capacity. Second, even if Title
II of the ADA did allow suits against defendants in their individual capacities, like Witchel, Gibson, and Rosenblum,
Bozigar would be shielded by judicial immunity for his functions in the underlying proceedings.

16

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 17 of 19

Elisabeth Molnar, it fails to state a valid claim and will be dismissed with
prejudice.
•

Stephanie Muick: The SAC names Stephanie Muick19 “in her capacity as a court
appointed council [sic], principle [sic] of Cervone Law and as an individual.”
(SAC, at 1.) During the underlying state court litigation, Muick served as a court
appointed attorney for Plaintiff. Thus, Muick cannot plausibly fall within the
scope of Title II of the ADA. Instead, she acted as an attorney working on behalf
of a private individual—the Plaintiff. To the extent that the SAC seeks to state a
Title II ADA claim against Stephanie Muick, it fails to state a valid claim and will
be dismissed with prejudice.

•

Arnold Caplan: The SAC names Caplan “in his capacity as a court appointed
[guardian ad litem], principle [sic] in Caplan & Chester and as [an] individual.”
(SAC, at 1.) None of Plaintiffs claims against Caplan plausibly allege that Caplan
falls within the scope of Title II of the ADA. Caplan was appointed as the
guardian ad litem for Plaintiff in the underlying custody dispute. This, however,
does not qualify Caplan as a “public entity” for purposes of the ADA. Moreover,
it is clear that Caplan’s capacity as a principal in a law firm and as an individual
falls far outside the scope of Title II of the ADA’s coverage. And the relief that
Plaintiff seeks is for compensatory and punitive damages. (SAC, at 67.) To the

19 In her Motion to Dismiss, (ECF No. 46), Muick uses the surname “Muick-Cervone,” and at times refers to herself
simply as “Cervone.” For simpler cross-reference to the SAC, however, the Court will use “Muick.”

17

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 18 of 19

extent that the SAC seeks to state a Title II ADA claims against Arnold Caplan, it
fails to state a valid claim and will be dismissed with prejudice.20
•

William Clifford: According to the SAC, William Clifford was appointed by the
court to serve the interests of Plaintiffs children during the custody dispute.
Clifford is named in the SAC “in his capacity as a partner in Dickie, McCamey &
Chilcote and as an individual.” (SAC, at 1.) In these roles, Clifford cannot
plausibly be said to be a “public entity” for the purposes of Title II of the ADA.
Nothing in the substance of the SAC supports the belief that Clifford falls within
the scope of Title II of the ADA. As with Defendant Bennington, the ADA simply
does not provide a remedy for the conduct Plaintiff alleges against Clifford. To
the extent that the SAC seeks to state a Title II ADA claims against William
Clifford, it fails to state a valid claim and will be dismissed with prejudice.

20 Moreover, as with Defendants Witchel, Gibson, Rosenblum, and Bozigar, to the extent that any claim against
Caplan could be construed as a claim against him in a representative capacity—which the Court concludes it
cannot—the claims would still be dismissed. First, even if Caplan’s role as a court appointed guardian ad litem
counted as an “official position,” such that he could be sued in his official capacity, the SAC does not plausibly
show that he is still in that position. Instead, the SAC is premised on the family court proceedings being over—
indeed that is the bedrock principle of Plaintiffs entire argument. Therefore, Caplan would not be in a position to
provide any prospective injunctive relief—to the extent that Plaintiff seeks any—and is therefore not a proper
defendant in an official capacity. Second, even if Title II of the ADA did allow suits against defendants in their
individual capacities, like Witchel, Gibson, Rosenblum, and Bozigar, Caplan would be shielded by judicial
immunity for his functions in the underlying proceedings. See Gardner by Gardner v. Parson, 874 F.2d 131, 146 (3d
Cir. 1989) (“Guardian ad litem would be absolutely immune in exercising functions ... in which the guardian acts
as an actual functionary or arm of the court.”).

18

Case 2:17-cv-01624-MRH Document 110 Filed 10/11/19 Page 19 of 19

IV.

CONCLUSION
A defendant-by-defendant examination of the SAC, then, leads the Court to conclude that

Plaintiff entirely failed to state a claim for which relief can be granted.21 As a result, all of
Plaintiffs ADA-based claims—which are the only claims remaining at this stage—must be
dismissed. The Court recognizes the earnestness with which Plaintiff seeks to vindicate what he
perceived as acts of disability discrimination. But the reality is that the ADA simply does not
apply to every act of discrimination based on disability, and in this case, it cannot serve as a basis
of relief for Plaintiff. Because this Court previously dismissed claims allegedly stemming from
the Constitution and state law, there is no remaining legal authority on which Plaintiff can
maintain his grievances in federal court. Without the necessary law on which to rest his facts,
Plaintiff cannot litigate these claims in federal court. This case is dismissed with prejudice.

Mark R. Homak
Chief United States District Judge
cc:
Date:

All counsel of record
t(___, 2019

21 Plaintiff has also filed a motion to appoint counsel for Defendants Kimberley and Jocelyn Steele. (ECF No. 106.)
The Court knows of no basis for this motion, and it is denied.

19

